<html>
<title> - NOMINATION OF THEODORE W. KASSINGER TO BE GENERAL COUNSEL OF THE DEPARTMENT OF COMMERCE</title>
<body><pre>[Senate Hearing 107-964]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-964
 
                  NOMINATION OF THEODORE W. KASSINGER


                      TO BE GENERAL COUNSEL OF THE


                         DEPARTMENT OF COMMERCE

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2001

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation






                       U. S. GOVERNMENT PRINTING OFFICE
86-426                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B. BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  MAX CLELAND, Georgia
GEORGE ALLEN, Virginia               BARBARA BOXER, California
                                     JOHN EDWARDS, North Carolina
                                     JEAN CARNAHAN, Missouri

                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel




                            C O N T E N T S

                              ----------                              

                                                                   Page

Hearing held on April 26, 2001...................................     1
Statement of Senator Cleland.....................................     2
Statement of Senator McCain......................................     1
    Prepared statement...........................................     1

                                Witness

Kassinger, Theodore W., Nominee for General Counsel of the 
  Department of Commerce.........................................     3
    Prepared statement...........................................     4
    Biographical and Financial Information.......................     4


   NOMINATION OF THEODORE W. KASSINGER TO BE GENERAL COUNSEL OF THE 
                         DEPARTMENT OF COMMERCE

                              ----------                              


                        THURSDAY, APRIL 26, 2001

                      United States Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:32 p.m., in 
room SR-253, Russell Senate Office Building, Hon. McCain, 
Chairman of the Committee, presiding.

        OPENING STATEMENT OF HON. MCCAIN, U.S. SENATOR 
                          FROM ARIZONA

    Senator McCain. This Committee takes its advice and consent 
role very seriously, and I will note that Mr. Kassinger has 
responded in detail to the Committee's request for biographical 
and financial data. I have had the opportunity to review your 
responses to the Committee's questionnaire and I look forward 
to moving your nomination quickly along with the other 
nominations we have considered before the Committee yesterday. 
Prior to Mr. Kassinger's appointment, he was a partner in the 
law firm of Vinson & Elkins, where he had practiced since 1985. 
Mr. Kassinger also has a strong background in public service. 
From 1981 through 1985 Mr. Kassinger served as International 
Trade Counsel to the Senate Committee on Finance under the 
leadership of Chairmen Bob Dole and Bob Packwood. Previously 
Mr. Kassinger served as an attorney with the U.S. Department of 
State from 1980 to 1981 and the U.S. International Trade 
Commission from 1978 to 1980. Mr. Kassinger is currently 
serving the Department of Commerce as Senior Adviser to the 
Secretary. Mr. Kassinger, I want to welcome you to the 
Committee. I appreciate your willingness to serve, and if you 
have any family members here, please feel free to introduce 
them before you begin your remarks.
    [The prepared statement of Senator McCain follows:]
   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    Good morning and welcome. Today I am pleased to have before the 
Committee Mr. Ted Kassinger, who has been nominated to serve as General 
Counsel of the Department of Commerce. I congratulate you Mr. 
Kassinger, on your appointment to this prestigious post.
    This Committee takes its advice and consent role very seriously, 
and I will note that Mr. Kassinger has responded in detail to the 
Committee's requests for biographical and financial data. I have had 
the opportunity to review your responses to the Committee 
questionnaire, and I look forward to moving your nomination quickly, 
along with the other nominations we considered before the Committee 
yesterday.
    Prior to Mr. Kassinger's appointment, he was a partner in the law 
firm of Vinson & Elkins, where he had practiced since 1985. Mr. 
Kassinger also has a strong background in public service. From 1981 to 
1985, Mr Kassinger served as International Trade Counsel to the Senate 
Committee on Finance, under the leadership of Chairmen Bob Dole and Bob 
Packwood. Previously, Mr. Kassinger served as an attorney with the U.S. 
Department of State from 1980 to 1981, and the U.S. International Trade 
Commission from 1978 to 1980.
    Mr. Kassinger is currently serving the Department of Commerce as 
senior advisor to the Secretary. Again, Mr. Kassinger, I welcome you to 
the Committee, and appreciate your willingness to serve. If you have 
any family members here, please feel free to introduce them before you 
begin your remarks.

    Mr. Kassinger. Thank you, Mr. Chairman. Indeed, I do. I 
would like to introduce my wife, Ruth; my daughters Anna, 
Austen and Alice; and my father-in-law and mother-in-law, Henry 
and Alice Good.
    Senator McCain. Welcome to the Committee today. I know this 
is a very proud moment for all of you, especially your 
daughters, and we want to welcome them. We're glad that they 
could be here at this important moment. I would like, before 
you make your brief opening statement, to recognize Senator 
Cleland.

          STATEMENT OF HON. MAX CLELAND, U.S. SENATOR 
                          FROM GEORGIA

    Senator Cleland. Thank you, Mr. Chairman. I just want to 
say a few quick words regarding today's nomination of Mr. 
Kassinger and later the testimony of Dr. Michael Adams, the 
distinguished President of the University of Georgia. Mr. 
Kassinger has a distinguished record of public service, as an 
appointee in the Reagan Administration as well as his many 
years as a high-level staffer to Senator Bob Dole. Mr. 
Kassinger is a proud recipient of both his undergraduate and 
graduate degrees from the University of Georgia. I understand 
that his father was Director of Public Safety in Athens, 
Georgia, some years ago, and I have every reason to believe he 
will continue his fine career in public service in his new 
capacity, and you certainly have my support. As General Counsel 
for the Department of Commerce, the nominee will be the Chief 
Legal Officer of the agency and will oversee a variety of 
counsels ranging from the Patent and Trade Office to the 
Export-Import Offices. Mr. Kassinger is well-qualified to serve 
in this role. I'd like for all of you to support his nomination 
and working with him.
    I think a little later, Mr. Chairman, the Committee with 
hear Dr. Michael Adams, the President of the University of 
Georgia. Dr. Adams is here to present his views in the current 
situation regarding college sport gambling. We are aware of the 
controversy surrounding the issue and I look forward to his 
testimony. Dr. Adams is no stranger to the Senate, having 
served Senator--Majority Leader, Howard Baker, for 6 years, 3 
of which he was his Chief of Staff. He has helped to make the 
University of Georgia one of the finest public universities in 
the country, and is quickly becoming a leading national figure 
in all issues affecting our education. I am sure the Committee 
will benefit from his testimony. Mr. Chairman unfortunately, 
due to the previously scheduled hearings, I won't be able to 
stay for today's hearing, but I look forward to the testimony 
of witnesses. Thank you very much.
    Senator McCain. So we know which Committee is more 
important to you. Thank you very much Senator Cleland.
    Mr. Kassinger.

    STATEMENT OF THEODORE W. KASSINGER, NOMINEE FOR GENERAL 
                COUNSEL, DEPARTMENT OF COMMERCE

    Mr. Kassinger. Mr. Chairman, members of the Committee. 
Senator Cleland, thank you so much for those kind words.
    I am honored to appear before you today as the President's 
nominee to serve as General Counsel of the U.S. Department of 
Commerce. I am grateful to President Bush for providing me this 
opportunity, and I am deeply gratified by the confidence and 
support shown to me by Secretary Evans. I would also like to 
thank this Committee for the courtesy it has extended to me 
throughout the appointment process.
    The General Counsel of the Department of Commerce serves as 
the agency's chief legal officer, providing legal advice and 
guidance to the Secretary and other senior Commerce officials 
as they perform the vital work of the Department. The breadth 
of the Department's responsibilities and activities are 
mirrored in the complex legal environment within which it must 
operate. Competently handling the myriad issues faced daily by 
the Department, from regulation of international trade to 
management of marine fisheries to internal administration 
matters and a multitude of others, will present a formidable 
challenge. It is one that I welcome.
    If confirmed by the Senate, I believe I would bring 
substantial relevant experience and knowledge to the position 
of General Counsel. In my nearly 16 years of private law 
practice, I represented and counseled clients engaged in a wide 
variety of international trade regulatory matters and 
proceedings, business transactions, litigations and 
arbitrations. Prior to joining my former law firm, I was 
privileged to serve on the staff of the Senate Committee on 
Finance, and as an attorney with both the U.S. Department of 
State and U.S. International Trade Commission. I thus 
fortunately have some knowledge of many Department of Commerce 
programs, and experience working with them.
    I also have much to learn about the Department, and the 
laws and regulations that govern its operations. As I learn, I 
know I will be well supported by a deep staff of career, able 
lawyers. I am confident that I will perform my duties with the 
skill that President Bush and you should expect.
    There is no more important role served by the General 
Counsel than to act as the Chief Ethics Officer for the 
Department. Secretary Evans has already requested that I make 
this responsibility a priority of my tenure. I share his strong 
commitment that the employees of the Department act with the 
utmost integrity and honesty, and I will strive to ensure that 
the Department's programs are implemented in that spirit.
    As someone who has previously had the opportunity to serve 
government in both the Executive and Legislative Branches, I 
have a keen appreciation for the role of this Committee and 
other committees of Congress in enacting the laws under which 
the Department operates, and conducting oversight of the manner 
in which the Department implements those laws. I would welcome 
the opportunity once again to assist you and your colleagues to 
carry our your responsibilities as the Department pursues its 
multiple missions.
    Permit me to conclude by affirming to you my view that 
public service in the position to which President Bush has 
nominated me would be a special privilege, one that I commit to 
undertake with all my energy and devotion. Thank you again for 
the opportunity to appear before you today and for your 
consideration of my nomination. I would be pleased to respond 
to any questions you may have.
    Thank you.
    [The prepared statement and biographical information of Mr. 
Kassinger follow:]
   Prepared Statement of Theodore W. Kassinger, Nominee for General 
                    Counsel, Department of Commerce
    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today as the President's nominee to serve as General Counsel 
of the U.S. Department of Commerce. I am grateful to President Bush for 
providing me this opportunity and I am deeply gratified by the 
confidence and support shown to me by Secretary Evans. I would also 
like to thank this Committee for the courtesy it has extended to me.
    The General Counsel of the Department of Commerce serves as the 
agency's chief legal officer, providing legal advice and guidance to 
the Secretary and other senior Commerce officials as they perform the 
vital work of the Department. The breadth of the Department's 
responsibilities and activities are mirrored in a complex legal 
environment within which it must operate. Competently handling the 
myriad issues faced daily in the Department--from regulation of 
international trade to management of marine fisheries to internal 
administration matters and a multitude of others--will present a 
formidable challenge, but one that I welcome.
    If confirmed by the Senate, I believe I would bring substantial 
relevant experience and knowledge to the position of General Counsel. 
In my nearly 16 years of private law practice, I represented and 
counseled clients engaged in a wide variety of international trade 
regulatory matters and proceedings, business transactions, litigations, 
and arbitrations. Prior to joining my former law firm, I was privileged 
to serve on the staff of the Senate Committee on Finance and as an 
attorney at both the Department of State and the U. S. International 
Trade Commission. I thus fortunately have some knowledge of many 
Department of Commerce programs and experience working with them.
    I also have much to learn about the Department's operations, and 
the laws and regulations that govern its operations. As I learn, I know 
I will be well supported by a deep staff of able career lawyers. I am 
confident that I will perform my duties with the skill that President 
Bush and you should expect.
    There is no more important role served by the General Counsel than 
to act as chief ethics lawyer for the Department. Secretary Evans has 
already requested that I make this responsibility a priority of my 
tenure. I share his strong commitment that the employees of the 
Department act with the utmost integrity and honesty, and I will strive 
to ensure that the Department's programs are implemented in that 
spirit.
    As someone who has previously had the opportunity to serve 
government in both the executive and legislative branches, I have a 
keen appreciation for the role of this Committee and other committees 
of the Congress in enacting the laws under which the Department 
operates and in conducting oversight of the manner in which the 
Department implements those laws. I would welcome the opportunity once 
again to assist you and your colleagues to carry out your 
responsibilities, as the Department pursues its multiple missions.
    Permit me to conclude by affirming to you my view that public 
service in the position to which President Bush has nominated me would 
be a special privilege, one that I commit to undertake with all my 
energy and devotion. Thank you again for the opportunity to appear 
before you today, and for your consideration of my nomination.
    I would be pleased to respond to any questions you may have.
                      a. biographical information
    1. Name: Theodore (Ted) William Kassinger.
    2. Position to which nominated: General Counsel of the U. S. 
Department of Commerce.
    3. Date of nomination: April 4, 2001.
    4. Address: Residence: (Information not released to the public). 
Office: Office of the Secretary U.S. Department of Commerce 14th: 
Street and Constitution Ave., NW Washington, DC 20230.
    5. Date and place of birth: January 26, 1953; Atlanta, GA.
    6. Marital status: Married--Ruth L. Good (wife's maiden name).
    7. Names and ages of children: Anna L. Kassinger, 14; Austen E. 
Kassinger, 12; Alice C. Kassinger, 8.
    8. Education: University of Georgia, September 1975-June 1978, 
J.D., June 1978; University of Georgia, June 1970-June 1975, B.L.A, 
June 1975, Athens High School, September 1968-June 1970, none (skipped 
senior year).
    9. Employment Record: Law clerk, U.S. Dept of HEW, Atlanta, GA, 
June 1976-May 1977; Summer Associate, Smith, Currie & Hancock, Atlanta, 
GA, June 1977-August 1977; Instructor, UGA Business School, Athens, GA, 
September 1977-June 1978; Attorney-Advisor, U.S. International Trade 
Commission, Washington, DC, August 1978-April 1980; Attorney-Advisor, 
U.S. Dept. of State, Washington, DC, April 1980-October 1981; 
International Trade Counsel, U.S. Senate Committee on Finance; 
Washington, DC, October 1981-June 1985; Associate (1985-1989), Partner 
(1990-2001), Vinson & Elkins LLP, Washington, DC, July 1985-February 
2001; Senior Advisor to the Secretary, U.S. Dept. of Commerce, 
Washington, DC, February 2001-present; Instructor, Georgetown Law 
Center, Washington, DC, January 1987-December 1987.
    10. Government experience: University of Georgia School of Law, 
Board of Visitors.
    11. Business relationships: Vinson & Elkins LLP--Partner (1990-
2001), Ford's Theatre Society--Trustee (1998-present), The Concord Hill 
School--Trustee (1995-present), University of Georgia School of Law 
Board of Visitors (1999-present).
    12. Memberships: District of Columbia Bar, Georgia Bar, American 
Bar Association, American Society of International Law (Interest Group 
Chair)\1\, Council on Foreign Relations (term membership)\1\, Trout 
Unlimited, The Nature Conservancy.
---------------------------------------------------------------------------
    \1\ Not current member.
---------------------------------------------------------------------------
    13. Political affiliations and activities: (a) None. (b) Bush-
Cheney 2000 Presidential Campaign: Assisted policy staff of campaign. 
Bush/Cheney Presidential Transition: Served as coordinator of Commerce 
Department Transition Team. Dole for President Campaign 1996: 
Volunteer.(c) National Good Government Fund $500, National Good 
Government Fund $600, National Good Government Fund $546, National Good 
Government Fund $525, Vinson & Elkins Texas PAC $1442, Vinson & Elkins 
Texas PAC $636, Vinson & Elkins Texas PAC $911, Vinson & Elkins Texas 
PAC $1000, Vinson & Elkins Texas PAC $2304, Vinson & Elkins Texas PAC 
$970, Vinson & Elkins Texas PAC $1100, Vinson & Elkins Texas PAC $1465, 
Vinson & Elkins Texas PAC $1803, Vinson & Elkins Texas PAC $1520, 
Vinson & Elkins Texas PAC $1668, Dole for President $1000, George W. 
Bush Presidential Campaign $1000, Republican National Committee $1000, 
Bush-Cheney Recount Fund $500.
    14. Honors and awards: College Honorary: Gridiron Secret Society, 
Blue Key, Omicron Delta Kappa, Senior Superlative. Skipped senior year 
of high school to join University Honors Program. Awarded Law School 
scholarship.
    15. Published writings: ``Antidumping Duty Investigations,'' in Law 
and Practice of United States International Trade Regulation, Oceana 
Publications (1987, 1989, 1996 update with Rosemary E. Gwynn); Basic 
Documents of International Economic Law (chapters on the GATT 
Antidumping Code, Subsidies Code, Standards Code, and Procurement 
Code), CCH International and Westlaw (1990).

                   b. future employment relationships
    1. Do you have any plans, commitments or agreements after 
completing government service to resume employment, affiliation or 
practice with your previous employer, business firm, association or'' 
organization? No.
    2. Has anybody made a commitment to employ your services in any 
capacity after you leave government service? No.
    3. If confirmed, do you expect to serve out your full term or until 
the next Presidential election, whichever is applicable? Yes.
                   c. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with, business associates, 
clients or customers.
    I have maintained assets in a 401(k) pension plan sponsored by 
Vinson & Elkins LLP, consistent with the plan's standard option and the 
practice of other former partners.
    2. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.
    To avoid potential conflicts of interests, I intend to recuse 
myself from specific matters and to divest certain of my investments, 
as set forth in an Ethics Agreement into which I have entered with the 
Department of Commerce.
    3. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 20 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated?
    The Commerce Department's ethics officials, together with the 
Office of, Government Ethics, have advised me of the possible conflicts 
of interest that might arise from my recent business arrangements and 
current investments. Implementation of the Ethics. Agreement will 
resolve those potential conflicts. I am unaware of any other such 
potential conflict of interest.
    4. Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat or modification of any legislation or affecting the 
administration and execution of law or public policy.
    During the course of my law practice over the past 10 years, I 
regularly represented clients ,in a variety of administrative 
proceedings and in connection with matters pending before or involving 
consideration by Federal agencies, including the Departments of 
Commerce, Treasury, Defense, and State; the International Trade 
Commission; and the Office of the U.S. Trade Representative. These 
matters included, for example, antidumping and countervailing duty 
investigations; other trade law investigations; export licenses and 
investigations; economic sanctions regulations; and regulation of 
foreign investments. I also participated in several matters for which 
my firm or I registered as lobbyists, or that indirectly related to 
legislative or rulemaking matters. These included advocacy concerning 
customs user fees, the sale of the Naval Petroleum Reserves, economic 
sanctions legislation, imports of ammonium nitrate from Russia, and 
financial aid to Russia. My former firm does not currently have 
available lobbying registration records beyond the prior 5 years, but I 
do not recall any other such matters.
    5. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.
    I have worked with government ethics counsel to identify potential 
conflicts and to address appropriately those conflicts through the 
Ethics Agreement (copy attached). I have no trust or other agreements 
relevant to these matters. Upon taking office, I will act upon the 
advice of the Department's ethics counsel to avoid conflicts of 
interest that might arise, recusing myself from matters as appropriate.
    6. Do you agree to have written opinions provided to the Committee 
by the designated agency ethics officer of the agency to which you are 
nominated and by the Office of the Government Ethics concerning 
potential conflicts of interest or any legal impediments to your 
serving in this position? Yes.
                            d. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
for unprofessional conduct by, or been the subject of a complaint to 
any court, administrative agency, professional . association, 
disciplinary committee, or other professional group? If so, provide 
details. No.
    2. Have you ever been investigated, arrested, charged or held by 
any Federal, State, or other law enforcement authority for violation of 
any Federal, State, county, or municipal law, regulation or ordinance, 
other than a minor traffic offense? If so, provide details. No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in interest in an administrative agency 
proceeding or civil litigation? If so, provide details. I have not been 
an officer of any business. None of the non-profit corporations for 
which I have served as trustee have been involved in such proceedings 
during my tenure, to my knowledge. During my time as a partner in 
Vinson & Elkins LLP, the firm was occasionally involved as a party in 
interest in civil litigations, but I was not personally involved or 
implicated in any such proceedings.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination. None.
                     e. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines set by Congressional committees for information? Yes, within 
the bounds of my authority.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the committee with requested 
witnesses, to include technical experts and career employees with 
firsthand knowledge of matters of interest to the committee? Yes.
    4. Please explain how you will review regulations issued by your 
department/agency, and work closely with Congress, to ensure that such 
regulations comply with the spirit of the laws passed by Congress. The 
General Counsel's Office of the Commerce Department is responsible for 
drafting and providing legal approval to regulations issued by the 
agency. I thus expect to play a direct supervisory role in managing the 
rulemaking process, to ensure that rules comport with the legislative 
authority for them.
    5. Describe your department/agency's current mission, major 
programs, and major operational objectives. The Department of 
Commerce's statutory mission remains as the Congress established it in 
1903: to foster and to promote U.S. commerce, international trade, 
manufacturing and fisheries. The continuing operational objective for 
the agency is to tailor that mission to the contemporary commercial 
world, in all its breadth. The major programs of the Department all 
touch on U.S. commercial interests in vital ways. These programs 
include: (1) Managing the nation's fisheries and coastal zones through 
NOAA; (2) providing weather data gathering and analysis services, also 
through NOAA; (3) supporting both U.S. commerce and national security 
through oceanic mapping and research; (4) working with the U.S. Trade 
Representative to negotiate and to implement effective international 
trade agreements; (5) through the Foreign Commercial Service and other 
offices and programs, promoting U.S. export opportunities, particularly 
by assisting new and smaller exporters to take advantage of world 
markets; (6) through NTIA and other offices, advising the President on 
telecommunications and information technology policies, and manage the 
allocation of the Federal radio spectrum; (7) fostering technology 
standards development, research, and policies; including the 
harmonization of international standards in a manner consistent with 
U.S. commercial interests; (8) supporting economic development 
opportunities by minority and disadvantaged businesses and communities; 
and (9) conducting the U.S. census and related economic research.
    6. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.
                  f. general qualifications and views
    l. How have your previous professional experience and education 
qualifies you for the position for which you have been nominated. The 
Department's General Counsel is the chief legal officer of the agency, 
with responsibilities for managing over 250 lawyers, directly or 
indirectly, regarding matters covering the full range of the 
Department's programs. As noted above, in nearly 23 years of practicing 
law and serving in the Federal Government, including the last 16 years 
with a major international law firm, I have acquired a broad range of 
skills directly relevant to the programs of the Commerce Department. I 
have substantial government and private, practice experience concerning 
a wide variety of transactional, litigation, regulatory, and public 
policy matters, particularly involving international trade and other 
commercial matters. I also assumed 9 substantial administrative and 
supervisory responsibilities for my law practice and firm. I thus have 
acquired the skills and, experience necessary to manage a large 
government law department, and in particular, to represent the 
Department of Commerce and to advise the Secretary of Commerce in 
connection with the programs within the agency's jurisdiction.
    2. Why do you wish to serve in the position for which you have been 
nominated? I support the ideas and vision articulated by President Bush 
and Secretary Evans for promoting U.S. commercial interests and 
building the American economy. I wish to contribute to the success of 
the Department's mission by contributing the knowledge and experience I 
have gained to public service.
    3. What goals have you.established for your first 2 years in this 
position, if confirmed?
    <bullet> Hire, and increase the Office's ability to retain, 
experienced, able lawyers and staff.
    <bullet> Become fully established in my role as the chief ethics 
officer of the Department.
    <bullet> Improve the agency's rulemaking and other administrative 
processes, with the goal of reducing the litigation in which the 
Department now is regularly involved.
    <bullet> Assist Secretary Evans to achieve the goals that he sets.
    4. What skills do you believe you may be lacking which may be 
necessary to successfully carry out this position? What steps can be 
taken to obtain those skills? I generally possess the experience and 
skills that are necessary to carry out my' responsibilities. As I have 
throughout my career, I expect to engage in a process of continuing 
education through self-study and working with career personnel to 
obtain and to improve the knowledge and skills I currently may lack.
    5. Please discuss your philosophical views on the role of 
government. Include a discussion of when you believe the government 
should involve itself in the private sector, when should society's 
problems be left to the private sector, and what standards should be 
used to determine when a government program is no longer necessary. The 
Federal Government is entrusted with defending the national security, 
conducting international trade and other diplomatic relations with 
foreign states, defending individual liberty, including rights granted 
under the Constitution and Federal laws, and working with State and 
local governments and the private sector to provide for the common 
welfare. The government has an, important role to play in and with the 
private sector. where necessary to ensure competitive opportunity, to 
promote free enterprise, and to protect public health and safety. 
Government programs should be established and continually evaluated 
based on need, cost-effectiveness, and alternative means of 
accomplishing the same ends.
    6. In your own words, please describe the agency's current 
missions, major programs, and major operational objectives. As noted in 
my answer to Question E5 above, nearly a century ago Congress defined 
the Commerce Department's mission: to foster and to promote U.S. 
commerce, international trade, manufacturing and fisheries. That 
mission today must be pursued in a commercial world that is far more 
globalized than in 1903, that is. increasingly knowledge-based and 
electronically interconnected, and that is innovating at a rate never 
before experienced. The Department accordingly must continually 
evaluate its programs in light of the current competitive environment. 
In general, the Department's objectives should be to contribute to the 
creation of a competitive environment in which free enterprise thrives 
while the nation's commercial interests and natural resources are 
protected. Each of the major programs identified in my answer to 
Question E5 can and should be implemented toward that end.
    7. In reference to question No. 6, what forces are likely to result 
in changes in the mission of this agency over the coming 5 years. While 
the statutory mission of the agency is unlikely to change in the next 5 
years, several factors will affect how the mission is accomplished. 
These include: Increased global trade and investment, under both 
existing and new trade agreements; the, continued expansion of e-
commerce, both domestically and transnationally; technological 
innovations that will drive continual introduction of new products, new 
markets, and new efficiencies in the conduct of business; and 
scientific discoveries that will improve management of fisheries, the 
marine environment, weather analysis, and other endeavors.
    In further reference to question No. 6, what are the likely outside 
forces which may prevent the agency from accomplishing its mission? 
What do you believe to be the top three challenges facing the 
department/agency and why? I am unaware of any outside force that may 
prevent the Commerce Department from accomplishing its mission. Three 
challenges will be: (1) Competing with the private sector for highly 
qualified people, particularly those with particular scientific and 
technical skills for which there are shortages; (2) focusing the 
Department's technology policy initiatives in a way that fosters, not 
hinders, a competitive environment; and (3) in the area of fisheries 
management, finding the means to promote the health of both the 
commercial fishing industry and fisheries stocks without continuous 
judicial intervention.
    9. In further reference to question No. 6, what factors in your 
opinion have kept the department/agency from achieving its missions 
over the past several years? By definition, the Department's mission of 
fostering U.S. commerce is on-going. Individual programs within the 
agency have faced specific challenges, however. For example, the 
expiration of the Export Administration Act in 1994 has required the 
Bureau of Export Administration to operate under emergency authority 
while seeking new authorizing legislation. The National Marine 
Fisheries Service has been the target of recurrent legal challenges, 
sometimes resulting in conflicting judicial mandates. In general, there 
has been an extraordinary need to devote time and resources to 
Departmental management in light of new statutory accountability 
requirements.
    10. Who are the stakeholders in the work of this agency? The 
Commerce Department's mission and programs are directed to the benefit 
of all Americans.
    11. What is the proper relationship between your position, if 
confirmed, and the stakeholders identified in question No. 10. The 
General Counsel is a public servant with the special responsibility of 
ensuring that the Department's programs are carried out legally and 
ethically. That responsibility requires a relationship defined by 
attention to the requirements of law and the exercise of independent 
judgment.
    12. The Chief Financial Officers Act requires all government 
departments and agencies to develop sound financial management 
practices similar to those practiced in the private sector.
    (a) What do you believe are your responsibilities, if confirmed, to 
ensure that your agency has proper management and accounting controls? 
It would be my ultimate responsibility to advise the CFO on the 
obligations of the laws and regulations that the CFO must take into 
account while administering his duties.
    (b) What experience do you have in managing a large organization? 
Vinson & Elkins is a large, multinational law firm, having over 700 
lawyers and annual revenues exceeding $300 million. As a partner in the 
firm, I chaired and participated in numerous management-related 
committees; carried various individual assignments related to strategic 
analysis and planning; and supervised various lawyers and other 
personnel in the provision of legal services to clients.
    13. The Government Performance and Results Act requires all 
government departments and agencies to identify measurable performance 
goals and to report to Congress on their success in achieving these 
goals.
    (a) Please discuss what you believe to be the benefits of 
identifying performance goals and reporting on your progress in 
achieving those goals. Identifying performance goals and reporting on 
the progress in achieving them ensures that public resources are 
devoted to appropriate, meaningful ends, with accountability for the 
outcome.
    (b) What steps could Congress consider taking when an agency fails 
to achieve its performance goals? Should these steps include the 
elimination, privatization, downsizing or consolidation of departments 
and/or programs? The steps should respond to the reasons why the agency 
has failed to achieve its goals. If experience shows that a particular 
program does not have a worthwhile purpose or its purpose cannot be 
achieved in a cost-effective manner, then elimination or restructuring 
of the program may well be warranted. In other cases, less radical 
remedies may succeed in raising the performance of a worthwhile program 
to an acceptable level.
    (c) What performance goals do you believe should be applicable to 
your personal performance, if confirmed? The General Counsel's 
performance should be measured by the success of the Office of the 
General Counsel in delivering timely and effective legal services to 
the Secretary and other Department personnel, and in carrying out of 
other responsibilities entrusted to that office.
    14. Please describe your philosophy of supervisor/ employee 
relationships. Generally, what supervisory model do you follow? Have 
any employee complaints been brought against you? I believe in leading 
by example, and by encouraging employees to seek satisfaction in their 
jobs through learning and accepting responsibility for serving others 
well. I am unaware of any employee complaint every having been brought 
against me.
    15. Describe your working relationship, if any, with the Congress. 
Does your professional experience include working with committees of 
Congress? If yes, please describe. Having spent 4 years on the staff of 
the Senate Finance Committee, I have an especially deep respect for the 
responsibilities of Members of Congress. I' expect to have a 
professional working relationship with Congress .that is expressed 
through regular, two-way communication, backed by mutual desire to 
assist both the Members and the Department to fulfill their respective 
duties.
    16. Please explain what you believe to be the proper relationship 
between yourself, if confirmed, and the Inspector General of your 
department/agency. The IG and the General Counsel should share the 
mutual goal of ensuring the Department and its individual employees 
carry out their responsibilities lawfully, efficiently, and with 
integrity. I would expect to provide the IG with legal advice, just as 
any other Department office, and I would likewise welcome the IG's 
suggestions concerning improvements in operation of the General 
Counsel's Office.
    17. Please explain how you will work with this Committee and other 
stakeholders to ensure that regulations issued by your department/
agency comply with the spirit of the laws passed by Congress. In 
drafting, reviewing, and interpreting the Department's rules, the 
General Counsel's Office will be guided by the letter and legislative 
intent of the laws authorizing the rules. Please also see my response 
to Question E4.
    18. In the areas under the department/agency's jurisdiction, what 
legislative action(s) should Congress consider as priorities? Please 
State your personal views. President Bush supports reauthorization of 
the Export Administration Act, on a permanent basis, as soon as 
possible. It also appears to be important to resolve the funding status 
of the Patent and Trademark Office. Reauthorization of the Magnuson-
Stevens Act and the Marine Mammals Protection Act are also high 
priorities.
    19. Within your area of control, will you pledge to develop and 
implement a system that allocates discretionary spending based on 
national priorities determined in an open fashion on a set of 
established criteria? If not, please State why. If yes, please State 
what steps you intend to take and a timeframe for their implementation. 
Yes, where applicable. The General Counsel's Office generally would not 
be administering programs intended to carry out broad national 
priorities. Discretionary spending should be made on the basis of 
objective criteria developed in a methodical process.

    Senator McCain. Thank you very much, Mr. Kassinger. I did 
read your written responses to the many questions that were 
submitted to you. I think they're excellent. I look forward to 
moving your nomination as quickly as possible so that you can 
get to work as quickly as possible. Do my colleagues have any 
questions for the witness? If not, thank you, and 
congratulations Mr. Kassinger. You can see that your nomination 
is fraught with controversy. Thank you very much.
    Mr. Kassinger. Thank you Senators.
    Senator McCain. Good luck to you.
    [Whereupon at 9:47 a.m., the hearing was adjourned.]

                                <greek-d>

</pre></body></html>
